No. 21-

IN THE

Supreme Court of the United States
K.E.K.,
Petitioner,
v.
WAUPACA COUNTY,
Respondent.
On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The petitioner requests leave to file the attached petition for writ
of certiorari without payment of costs and to proceed in forma pauperis.
Pursuant to Wis. Stat. ยง977.06 and ยง977.07, the Wisconsin State Public
Defender determined that K.E.K. qualified for the appointment of
counsel at public expense in the Wisconsin circuit court, court of appeals,
and supreme court for this case. It also appointed the undersigned
counsel to represent K.E.K. on this petition for writ of certiorari. A copy
of the order of appointment is appended.

___________________
Colleen D. Ball
Counsel of Record
WISCONSIN STATE PUBLIC DEFENDER
735 North Water Street, Suite 912
Milwaukee, WI 53202
(414) 227-3110

ballc@opd.wi.gov

ORDER APPOINTING COUNSEL
Client's Full Name:

Korrin Kupris

Client ID:

MAP1288415

Address:

355 Farnworth Ct., Apt. B
Glen Ellyn, IL 60137

SPD ID:

216800132Z

File No:

21S-68-A-P00132

Case Group #:
In The Matter of the Condition of: K.E.K. (6/4/71)

Date of Birth:

2301506
6/4/1971

DOC #:

Statutes:
Nature of Case:

Chapter 51 Mental Commitment

1 Cnts:

County and Court:

Waupaca Circuit Court Br. 2

Other Information:

Judge:

Clussman, Vicki

Record Created:

February 22, 2021

Judgment Entered:

June 06, 2018

Type:

Re-Opening: U.S. Supreme Court

Case No:
17-ME-44

IN ACCORDANCE WITH CHAPTER 977 OF THE WISCONSIN STATUTES, I HEREBY APPOINT THE FOLLOWING
ATTORNEY TO REPRESENT THE ABOVE NAMED INDIVIDUAL IN RELATION TO THE ABOVE ENTITLED
PROCEEDINGS.
Attorney's Name:

Colleen D Ball

Local Counsel

Address:

735 N Water St Ste 912
Milwaukee, WI 53202 4105

SPD Office Handling: Milwaukee

State Bar No:

Phone Number:

1000729

Appointed By:

Katie R. York

Dated: February 22, 2021

(414) 227-4805
Office of the State Public Defender - Notice to Clients - File Retention Policy

When an attorney represents an individual, s/he makes and keeps a file of the documents and work done on the case. Attorneys on staff with the Office of the State
Public Defender (SPD) create and maintain such files for each case. This notice applies only to cases handled by staff attorneys of the Office of the State Public
Defender. If your case has been assigned to a private attorney, please consult that attorney about his or her file retention policy.
Upon the conclusion of the representation in this case, the SPD will, upon your request, deliver the original file or any portion requested, to you, along with any of
your original documents or other property that the SPD has in its possession.
If you do not request your file, the SPD will retain it for a period of at least five years after the matter is closed. At any point during this period, you may request
delivery of the file. If you do not request the file before the end of the five-year period, the SPD may, in its discretion, destroy the file and its contents without further
notice to you.

